The Department of Justice Office of the Inspector General (OIG) today released a report
examining the U.S. Marshals Service’s (USMS) use of appropriated funds to purchase
promotional items, commonly referred to as “swag.” The OIG found that the USMS
Investigative Operations Division (IOD) spent at least $793,118 on swag during fiscal years
2005 to 2010, and that these expenditures were excessive and, in some instances, in
contravention of Department policies and Government Accountability Office (GAO) decisions
and guidance. We found that the significant growth in spending on swag was the result of the
absence of internal controls and accountability within the USMS, and the failure of USMS
personnel who were given purchasing responsibilities to exercise good judgment.

The report notes that, on January 21, 2011, the Attorney General issued a directive to all
Department components to reduce expenditures to only mission-essential programs, projects
and activities. Following the issuance of this directive and the initiation of the OIG’s review, the
USMS dramatically reduced its spending on promotional items such as those described in
today’s report. Subsequent to the AG’s directive, the Department and the USMS issued policies
that provided explicit guidance on the purchase and use of promotional items in the
future. The OIG found that the new policies will encourage restraint and enhance
accountability with respect to the purchase of these types of items. However, the OIG also
found that the USMS policy contained flaws that the USMS should rectify.

The OIG made 3 recommendations to assist the USMS in this area; the USMS concurred with
all 3 recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/s1311.pdf.
